Report No. D-2007-128           September 26, 2007





   Hotline Allegations Concerning the Defense 

        Threat Reduction Agency Advisory 

         and Assistance Services Contract

  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

A&AS                  Advisory and Assistance Services
CB                    Chemical and Biological
DCAA                  Defense Contract Audit Agency
DTRA                  Defense Threat Reduction Agency
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IDIQ                  Indefinite-Delivery, Indefinite-Quantity
IG                    Inspector General
IT                    Information Technology
NGIT                  Northrop Grumman Information Technology
ODC                   Other Direct Costs
RFP                   Request for Proposal
WMD                   Weapons of Mass Destruction
                             INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                               400 ARMY NAVY DRIVE

                          ARLINGTON, VIRGINIA 22202-4704




                                                                      September 26, 2007


MEMORANDUM FOR DIRECTOR, DEFENSE THREAT REDUCTION AGENCY

SUBJECT: Report on Hotline Allegations Concerning the Defense Threat Reduction
         Agency Advisory and Assistance Services Contract
         (Report No. D-2007-l28)


        We are providing this report for review and comment. The Director, Defense
Threat Reduction Agency nonconcurred with the recommendations in the draft report.
We considered management comments on a draft of this report when preparing the final
report.

      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Director, Defense Threat Reduction Agency reconsider his previous
comments and provide revised comments on Recommendations 1. and 2. by October 26,
2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@dodig.mil. Copies of the management comments must
contain the actual signature ofthe authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to either Mr. Terry L. McKinney at (703) 604-9288 (DSN 664-9288) or Mr. Timothy E.
Moore at (703) 604-9282 (DSN 664-9282). See Appendix C for the report distribution.
The team members are listed inside the back cover.

                               By direction ofthe Deputy Inspector General for Auditing:




                                          Ric ard B. Jolliffe

                                    Assistant Inspector General

                                Acquisition and Contract Management

                  Department of Defense Office of Inspector General
Report No. D-2007-128                                                             September 26, 2007
    (Project No. D2006-D000CF-0262.000)

                       Hotline Allegations Concerning the Defense 

                          Threat Reduction Agency Advisory 

                            and Assistance Services Contract 


                                      Executive Summary

Who Should Read This Report and Why? Defense Threat Reduction Agency and
DoD contracting officials should read this report. The report addresses issues dealing
with competitive contract awards, proper use of integrated product teams in the
negotiation of contracts, and profit rates in relation to contract performance risk.

Background. This audit was performed in response to allegations received by the
Defense Hotline. Contract HDTRA1-05-D-0003 is a single-award, indefinite-delivery,
indefinite-quantity task order contract to provide advisory and assistance services. The
purpose of the Defense Threat Reduction Agency contract HDTRA1-05-0003 is to
acquire advisory and assistance services for the Defense Threat Reduction Agency and its
operational and related organizations, in support of research, planning, designing,
developing, implementing, integrating, testing, applying, and evaluating emerging and
mature technologies and developing and transitioning capabilities for the Defense Threat
Reduction Agency and its customers. Overall, the Hotline received seven allegations.
The allegations cover the solicitation, evaluation, and award of Defense Threat Reduction
Agency contract HDTRA1-05-D-0003 and the eight∗ related task orders, valued at
$62.7 million, awarded to date.

Results. Overall, we substantiated six of the seven allegations (see Appendix B for
allegations). In FY 2006, Defense Threat Reduction Agency contracting officials
awarded a $375 million single-source, indefinite-delivery, indefinite-quantity advisory
and assistance service contract using flawed techniques that were in conflict with the
Federal Acquisition Regulation. Defense Threat Reduction Agency officials negotiated
contract prices and terms using the final revised proposal after informing the contractor
that it was the only company in negotiations with the Defense Threat Reduction Agency.
Officials based the contract award on a revised final proposal developed by the contractor
with Defense Threat Reduction Agency assistance that was substantially different from
requirements contained in the contract solicitation. Defense Threat Reduction Agency
officials also accepted “other direct costs” in the revised final proposal that would have
changed the competitive environment if those requirements had been included in the
initial request for proposal. The Defense Threat Reduction Agency accepted abnormally
high profit rates on the revised cost proposal, and certified that contract prices were fair
and reasonable based on a competitive contract award although the contract was not
competitively awarded. As a result, the Defense Threat Reduction Agency paid more
than necessary for advisory and assistance service tasks, including $10.2 million to


∗
 Of the eight task orders, four task orders were awarded within a month after the contract was signed. The
other four task orders were awarded in and after February 2006.
procure dedicated facilities, and $792,372 to obtain initial information technology
equipment.

The Director of Defense Threat Reduction Agency should not exercise additional options
on contract HDTRA1-05-D-0003. He should compete a multiple-award, indefinite-
delivery, indefinite-quantity contract for advisory and assistance services. (See the
Finding section of the report for the detailed recommendations.)

The Defense Threat Reduction Agency internal controls were adequate. We identified no
material internal control weaknesses in the award of the Advisory and Assistance
Services contract. However, we reviewed only one contract at Defense Threat Reduction
Agency. Therefore, we can not comment on all of the internal controls.

Management Comments and Audit Response. The Director, Defense Threat
Reduction Agency nonconcurred with the recommendations and stated that the Defense
Threat Reduction Agency complied with the Federal Acquisition Regulation, statutes,
and regulations in the award of the contract. Knowledgeable senior level personnel made
the acquisition decisions. The report failed to: recognize Government benefits the
Defense Threat Reduction Agency obtained; appreciate the intolerable consequences on
the mission; and recognize the impracticality of the time frames to execute a new
competition.

The Director, Defense Threat Reduction Agency stated his agency complied with Federal
Acquisition Regulation 16.504 in determining that a single award contract was in the best
interest of the Government. Senior leaders within the Defense Threat Reduction Agency
thoroughly reviewed the use of a single-award contract and determined that was the best
approach, which the Federal Acquisition Regulation allows. The Defense Threat
Reduction Agency uses advisory and assistance services contracts for highly technical
expertise on a continuous basis to support staff with mission demands. The Director
stated that it would be impractical, and also hurt the mission, to compete each task
between multiple-award contracts. The Director stated that the report does not identify
any procedures not followed.

Our review validated Hotline allegations that Defense Threat Reduction Agency contract
HDTRA1-05-D-0003 was awarded based on a final revised proposal that was
significantly different from requirements contained in the contract solicitation, that
contracting officials did not award a competitive contract, and that the contracting officer
certified that contract prices were fair and reasonable based on a competitive contract
award. Also, the contracting officer did not negotiate fair and reasonable prices, nor
adequately evaluate contract “other direct costs,” and officials did not determine
reasonable profit rates, awarding the contract with abnormally high profit rates.

In the contract documentation, Defense Threat Reduction Agency officials conceded that
the Federal Acquisition Regulation has a preference for multiple awards for advisory and
assistance contracts. However, Defense Threat Reduction Agency officials have yet to
present a cogent argument that the Government is better served by a single-award
indefinite-delivery, indefinite-quantity contract. Defense Threat Reduction Agency
officials state that they complied with Federal Acquisition Regulation provisions because
the required paragraph was included in the Acquisition Plan that was approved by senior
officials. However, this paragraph does not explain why the Defense Threat Reduction
Agency will be better served by a single contractor reimbursed for all advisory and
assistance tasks on a cost-plus basis than they would be by competing tasks among


                                             ii
several responsible contractors. For this contract, Defense Threat Reduction Agency
officials did issue a solicitation in a competitive environment. However, the Defense
Threat Reduction Agency did not receive a responsive proposal from any contractor and
cannot claim its advisory and assistance contract was awarded on a competitive basis.
Rather than work on a new solicitation after receiving no responsive bids, Defense Threat
Reduction Agency officials worked with the incumbent contractor to develop a contract
that did not resemble the original solicitation, that was not competed, that reimbursed the
contractor for unnecessary costs, that had abnormally high profit rates, and that did not
contain verifiable fair and reasonable prices. The procedures by which the revised final
proposal was developed are not in conformance with the Federal Acquisition Regulation.
We request the Director, Defense Threat Reduction Agency reconsider his response and
provide a plan by October 26, 2007, to terminate this contract and award a
multiple-award contract for advisory and assistance services.




                                            iii
Table of Contents 


Executive Summary                                                  i


Background                                                         1


Objective                                                          2


Review of Internal Controls                                        2


Findings 

      Negotiation and Award of DTRA Contract HDTRA1-05-D-0003 	    3


Appendixes
      A. Scope and Methodology 	                                  20 

          Prior Coverage                                          20 

      B. Allegations 	                                            22 

      C. Report Distribution 	                                    23 


Management Comments
      Defense Threat Reduction Agency 	                           25 

Background 

           This audit was performed in response to allegations received by the Defense 

           Hotline. Overall, the Hotline received seven specific allegations (see

           Appendix B). The allegations cover the solicitation, evaluation, and award of

           Defense Threat Reduction Agency (DTRA) contract HDTRA1-05-D-0003 and 

           eight1 related task orders, worth approximately $62.7 million, awarded to date. 

           The contract is a single-award, indefinite-delivery, indefinite-quantity (IDIQ) task 

           order contract for advisory and assistance services (A&AS). The purpose of

           DTRA contract HDTRA1-05-D-0003 is to acquire A&AS for DTRA and its 

           operational and related organizations, in support of research, planning, designing,

           developing, implementing, integrating, testing, applying, and evaluating emerging 

           and mature technologies and developing and transitioning capabilities to DTRA 

           customers. DTRA awarded the contract to Northrop Grumman Information 

           Technology (NGIT) with a minimum award amount of $25,000 and a maximum

           amount of $375 million. 


           On January 6, 2005, DTRA contracting officials issued the request for

           proposals (RFP) for HDTRA1-04-R-0013,2 closing on February 22, 2005. The 

           solicitation resulted in one proposal, from the incumbent contractor. On May 20,

           2005, the DTRA contracting officer sent the contractor a letter opening

           negotiations regarding the solicitation. Instead of exploring other options to

           foster some form of competition, DTRA decided to enter into direct negotiations 

           with the contractor using an integrated product team. The DTRA contracting

           officer notified the incumbent contractor that the source selection process was 

           dissolved. DTRA awarded the contract effective October 27, 2005. Four task 

           orders were awarded within a month of the signed contract. Each task order has a 

           base year and three option years. The first option year was exercised during

           October 2006. 


           Advisory and Assistance Services. Federal Acquisition Regulation (FAR)

           Part 2, “Definition of Words and Terms,” defines advisory and assistance services 

           as: 

                   Those services provided under contract by nongovernmental sources to
                   support or improve: Organizational policy development; decision-
                   making; management and administration; program and/or project
                   management and administration; or R&D [Research and Development]
                   activities. It can also mean the furnishing of professional advice or
                   assistance rendered to improve the effectiveness of Federal
                   management processes or procedures (including those of an
                   engineering or technical nature). In rendering the foregoing services,
                   outputs may take the form of information, advice, opinions,
                   alternatives, analyses, evaluations, recommendations, training and day-


1
 Of the eight task orders, four task orders were awarded within a month after the contract was signed. The
 other four task orders were awarded in and after February 2006.
2
    The request for proposal for the A&AS contract was HDTRA1-04-R-0013; DTRA awarded the contract
     HDTRA1-05-D-0003.



                                                     1

            to-day aid of support personnel needed for the successful performance
            of ongoing Federal operations.

     Competitive Contract Awards of Service Contracts. According to the Public
     Contract Law Journal, the best method for the Government to determine that
     prices paid for services are fair and reasonable is to award service contracts on a
     competitive basis. Full and open competition assures cost effectiveness as well as
     reduces the potential for favoritism and conflicts of interest.

     The “Competition in Contracting Act” is implemented in section 2304, title 10,
     United States Code (10 U.S.C. 2304) and 10 U.S.C. 2305. When conducting a
     procurement for property or services, 10 U.S.C. 2304 states that the agency shall
     obtain full and open competition through the use of competitive procedures in
     accordance with the requirements of this chapter and the FAR.


Objective
     Our overall audit objective was to determine whether contract procedures for
     contract HDTRA1-05-D-0003 were in compliance with applicable laws and
     regulations. Specifically, we examined the solicitation, award, administration,
     and funding of the contract. The focus of our review was to determine whether
     the seven allegations to the DoD Hotline were substantiated. See Appendix A for
     a discussion of the scope and methodology of our review.


Review of Internal Controls
     The DTRA internal controls were adequate as they applied to the audit objectives.
     We identified no material internal control weaknesses in the award of the A&AS
     contract. However, we reviewed only one contract at DTRA. Therefore, we
     cannot comment on all of the internal controls within DTRA.




                                             2

            Negotiation and Award of DTRA
            Contract HDTRA1-05-D-0003
            In FY 2006, DTRA contracting officials awarded a $375 million
            single-source, IDIQ, A&AS contract using flawed techniques that were in
            conflict with the FAR. Specifically, DTRA officials:

                    •	 based the contract award on a revised final proposal developed
                       by the contractor with DTRA assistance that was substantially
                       different from requirements contained in the contract
                       solicitation,

                    •	 negotiated contract prices and terms of the final revised
                       proposal after informing the contractor that it was the only
                       company in negotiations with DTRA,

                    •	 accepted “other direct costs” in the revised final proposal that
                       would have changed the competitive environment if those
                       requirements had been included in the initial RFP,

                    •	 accepted abnormally high profit rates on the revised cost
                       proposal, and

                    •	 certified that contract prices were fair and reasonable based on
                       a competitive contract award although the contract was not
                       competitively awarded.

            The contracting officer did not follow FAR guidance when soliciting,
            negotiating, and awarding the contract. Originally, the procurement was
            solicited as competitive; however, DTRA entered into direct negotiations
            with the only contractor that submitted a proposal even though the revised
            final proposal was significantly different from the solicited requirement.
            As a result, DTRA paid more than necessary for A&AS tasks including
            $10.2 million to procure dedicated facilities and $792,372 to obtain initial
            information technology (IT) equipment and replace that equipment within
            a 3-year period.


Criteria
     FAR Competition Requirements. FAR 6.101, “Full and Open Competition
     Policy,” requires, “with certain limited exceptions . . . that contracting officers
     shall promote and provide for full and open competition in soliciting offers and
     awarding Government contracts.” Competitive procedures to meet the
     requirement include sealed bids, competitive proposals, combination of
     competitive procedures, or other competitive procedures.

     Requests for Proposals. FAR 15.203, “Request for Proposals,” states that
     requests for proposals “for competitive acquisitions shall, at a minimum, describe


                                           3

the (1) Government’s requirement; (2) Anticipated terms and conditions that will
apply to the contract; (3) Information required to be in the offeror’s proposal; and
(4) Factors that will be used to evaluate the proposal” and each factor’s relative
importance.

The Government must not favor one contractor over another. If substantial
changes are made to the RFP, all potential contractors need to receive those
changes to evaluate the RFP. Additionally, if the contracting officer changes the
RFP, the time the RFP is due may be extended.

Amending the Solicitation. FAR 15.206(e), “Amending the Solicitation,”
states that:
       If, in the judgment of the contracting officer, based on market research
       or otherwise, an amendment proposed for issuance after offers have
       been received is so substantial as to exceed what prospective offerors
       reasonably could have anticipated, so that additional sources likely
       would have submitted offers had the substance of the amendment been
       known to them, the contracting officer shall cancel the original
       solicitation and issue a new one, regardless of the stage of the
       acquisition.

Communications With Offerors. FAR 15.306(b)(2), “Exchanges With Offerors
After Receipt of Proposals,” states that communications:
       May be conducted to enhance Government understanding of proposals;
       allow reasonable interpretation of the proposal; or facilitate the
       Government’s evaluation process. Such communications shall not be
       used to cure proposal deficiencies or material omissions, materially
       alter the technical or cost elements of the proposal, and/or otherwise
       revise the proposal.

FAR 15.306 (d) states that “negotiations are exchanges, in either a competitive or
sole-source environment, between the Government and offerors, that are
undertaken with the intent of allowing the offeror to revise its proposal. . . .
When negotiations are conducted in a competitive acquisition, they take place
after establishment of the competitive range and are called discussions.”

Pricing Policy. FAR 15.402, “Pricing Policy,” requires contracting officers to
“purchase supplies and services from responsible sources at fair and reasonable
prices.” If the price is based on adequate competition, no further documentation
of the fair and reasonable price is required. However, in the absence of
competition additional justification is required.

Adequate Price Competition. FAR 15.403-1(c)(1), “Prohibition on Obtaining
Cost or Pricing Data,” provides that a price is based on adequate price
competition if
       There was a reasonable expectation, based on market research or other
       assessment, that two of more responsible offerors, competing
       independently, would submit priced offers in response to the
       solicitation’s expressed requirement, even though only one offer is


                                          4

           received from a responsible offeror and if – (A) Based on the offer
           received, the contracting officer can reasonably conclude that the offer
           was submitted with the expectation of competition, e.g., circumstances
           indicate that – (1) The offeror believed that at least one other offeror
           was capable of submitting a meaningful offer; and (2) The offeror had
           no reason to believe that other potential offerors did not intend to
           submit an offer . . .

    Indefinite-Quantity Contracts. FAR 16.504(a) states that “an indefinite-
    quantity contract provides for an indefinite quantity, within stated limits, of
    supplies or services during a fixed period.” FAR 16.504(c)(2) states that:
           (2) Contracts for advisory and assistance services.

           (i) Except as provided in paragraph (c)(2)(ii) of this section, if an
           indefinite-quantity contract for advisory and assistance services
           exceeds 3 years and $11.5 million, including all options, the
           contracting officer must make multiple awards unless— (A) The
           contracting officer or other official designated by the head of the
           agency determines in writing, as part of acquisition planning, that
           multiple awards are not practicable. The contracting officer or other
           official must determine that only one contractor can reasonably
           perform the work because either the scope of work is unique or highly
           specialized or the tasks so integrally related; (B) The contracting
           officer or other official designated by the head of the agency
           determines in writing, after the evaluation of offers, that only one
           offeror is capable of providing the services required at the level of
           quality required; or (C) Only one offer is received.

           (ii) The requirements of paragraph (c)(2)(i) of this section do not apply
           if the contracting officer or other official designated by the head of the
           agency determines that the advisory and assistance services are
           incidental and not a significant component of the contract.



DTRA A&AS Contract
    DTRA awarded contract HDTRA1-05-D-0003 on October 27, 2005. The
    contract was flawed because: DTRA negotiated contract terms and conditions that
    were significantly different from requirements in the RFP after informing the
    contractor that it was the only company in direct negotiations, the contract
    included other direct costs that were not in the RFP, and DTRA agreed to accept
    abnormally high profit rates. The contracting officer also incorrectly certified that
    prices were fair and reasonable based on a competitive contract award.

    Proposals. DTRA issued RFP HDTRA1-04-R-0013 on January 6, 2005, with
    provisions that competitive proposals be delivered to DTRA by February 22,
    2005. The RFP stated that “The Government anticipates awarding one contract
    under full and open competition.” DTRA had previously conducted an industry
    day session for all prospective offerors and interested parties on February 23,
    2004, a year earlier. According to the DTRA acquisition plan, 76 representatives


                                               5

from 53 companies attended. Twenty companies expressed interest and provided
feedback on the requirement after the industry day session.

The RFP provided for the award of a single IDIQ contract with a ceiling of
$375 million and an overall period of performance of 60 months. The RFP
requested contractors to provide technical and cost proposals in four areas
expected to result in the award of four task orders concurrent with or subsequent
to the award of the basic contract. These four task orders included the following:

       •	 Technology Development/Director’s Support Group,

       •	 Combat Support,

       •	 Chemical and Biological Defense Non-Medical, and

       •	 Chemical and Biological Medical.

DTRA received only one proposal, submitted by the incumbent A&AS
contractor. The DTRA contracting officer stated no formal follow-up occurred
with the other 52 companies to determine why they did not submit proposals;
however, through conversations, companies indicated that proposals were not
submitted because there was an entrenched incumbent. As one contractor stated
in its comments concerning the February 23, 2004, industry day, “The incumbent
on this effort has been the primary supplier of these services to DTRA and its
predecessors for more than 30 years. As demonstrated during the last
competition, it is very difficult to defeat a long standing incumbent for essentially
follow-on work.” Also, the industry day included several subcontractors. The
contracting officer stated that he had expected more proposals in the response to
the RFP.

        Notice of Source Selection. DTRA selected the sole offeror as
documented in a Source Selection Decision memorandum dated May 18, 2005.
At that time, DTRA dissolved the formal source selection process and directed
that the contractor propose an organizational conflict of interest plan, and
technical and cost proposals for the Technology Development task order and
Combat Support task order. These task orders must realistically and reasonably
reflect updated requirements. The technical and cost proposals for the Chemical
and Biological (CB) Defense directorate’s medical and non-medical tasks must
reflect a total understanding of the DTRA program and issues should be resolved
using an Integrated Product Team.

      On May 20, 2005, the DTRA contracting officer informed NGIT that
“DTRA will enter into negotiations only with NGIT, via an Integrated Product
Team.” The letter also states:

       •	 “Receipt of the letter “opens negotiations” between the Defense Threat
          Reduction Agency and Northrop Grumman Information Technology
          (NGIT) regarding solicitation HDTRA1-04-R-0013.”

       •	 “NGIT’s proposal does not represent the best value to DTRA, however
          . . . the proposal is correctable.”


                                      6

       •	 “ . . . NGIT is hereby notified that the Agency A&AS source selection
          has been dissolved.”

       •	 “The goal is to resolve all deficiencies prior to NGIT submitting its
          final proposal.”

Once DTRA entered direct negotiations with NGIT, months prior to the award of
the contract, this procurement was no longer competitive.

        Technical Evaluations. DTRA teams prepared technical evaluations of
the offeror’s technical approach for each of the four proposed task orders. The
proposals were to be evaluated on overall technical support and management, past
performance, organizational conflict of interest plan, specific work to be
performed (first four task orders), and cost. The technical evaluations for the
Technology Development and the Combat Support task orders are dated
March 15, 2005, and contain the same wording although the evaluations are
signed by different team leaders. The evaluations were brief and stated that they
were based on historical information from the current A&AS contract and from
an estimate of future A&AS requirements. The evaluations conclude that “a more
detailed analysis by the Government could have been made if the offeror
proposed to its Work Breakdown Structure and presented prime and subcontractor
costs separately.”

The evaluations for CB Defense Non-Medical and Medical task orders also
contained almost the same wording although the evaluations were signed by
different team leaders. The evaluations were dated March 15, 2005, and
concluded, “the offeror failed to understand the complexities and scope of the
technical aspects of the CB Non-Medical program [and the CB Medical
program]. Therefore, the task order team cannot perform a meaningful cost
realism analysis on the offeror’s proposed estimated labor and other direct cost
elements.”

        Integrated Product Team Process. The Integrated Product Team
process was initiated in May 2005 and concluded in October 2005. Through the
Integrated Product Team process, the contractor, with full knowledge that it was
the only company negotiating the contract and with the assistance of DTRA,
made significant revisions to its proposal.

        The cost reviews of each of the first four task orders laid out the changes
between the initial task order proposals and the revised final proposals developed
by the Integrated Product Team. The cost reviews regarded the initial proposals
as a baseline even though the technical analyses of those proposals stated that a
complete review could not be conducted on two tasks and that the contractor did
not understand the scope or complexities of the other two tasks. In addition, on
the revised proposals, the non-medical and medical CB tasks were combined and
a new task for Combating Weapons of Mass Destruction (WMD) was added. The
contract time period is 60 months but the task orders have a base year and
3 option years (48 months), although the $375 million ceiling remained. Despite
shortening the period of performance of the contract, the number of proposed
labor hours on the revised final proposals increased significantly. See the table
for proposed hours.


                                     7

               Proposed Hours on Contract HDTRA1-05-D-0003

    Task                 Initial                Revised             Percent Increase
Technology             1,009,887                1,349,722                    34
Development
   Combat                144,862                 433,946                   199
   Support
  Chemical               244,474                 478,272                     96
  Biological
 Combating                         0             125,624                   N/A
   WMD
    Total              1,399,223                2,387,564                    71


         The labor rate in the initial proposal differs drastically from the rate in the
revised proposal. For instance, the average Combat Support task labor rate in the
initial proposal is $358.94 per hour; in the revised final proposal, it is $91.83 per
hour. The total labor hours for the contract increased 988,207 hours from the
initial proposal. The revised final proposal contains no explanation for the
difference other than a note that a suspected error in the initial proposal failed to
account for all hours proposed.

The October 27, 2005, award of the basic contract and the subsequent award of
the first four task orders were based on the final revised proposal that was
substantially different than the contractor’s initial proposal. DTRA
inappropriately worked with the contractor to correct proposal deficiencies and
materially altered both the technical and cost elements of the contractor’s initial
proposal. Under these circumstances, the FAR requires the contracting officer to
cancel the original solicitation and issue a new one, regardless of the stage of the
acquisition. In addition, because the contractor knew that it was the only
company being considered, the contracting officer cannot claim that there was a
reasonable expectation of competition on the revised final proposal.

Acceptance of Other Direct Costs. The revised final proposal contained
contract “other direct costs” (ODC) adding direct costs that would have changed
the competitive environment had those items been listed on the initial RFP.
Foremost among those items is the $10.2 million cost of procuring a dedicated
facility that the contractor leased for the DTRA A&AS support personnel. Also
included were the costs of furnishing that facility with IT equipment, office
furniture, and break room furnishings including dishwashers, microwaves, and
refrigerators. The initial RFP did state that the contractor should demonstrate the
ability to provide support to DTRA within 30 minutes after request during
business hours.




                                       8

ODCs are defined in the FAR as incidental services for which there is not a labor
category specified in the contract such as travel or computer usage charges. The
costs of facilities and equipment are normally considered an indirect cost. The
Government pays contractors for those types of costs through the payment of
overhead costs. In this case, the facility and equipment costs are considered
direct costs because, as a contracting officer representative states:
       I find that it is reasonable for the government to reimburse the
       contractor for these ancillary items as they are required to support such
       things as snacks to visitors as well as employees, conferences,
       meetings, etc., conducted in support of the government.

DTRA did not comply with regulations to determine whether the costs proposed
for ODCs were fair and reasonable. The contracting officer’s cost review
memorandums that certified fair and reasonable costs on the first four task orders
stated that the Defense Contract Audit Agency (DCAA) “took no exception to the
elements which comprised the ODC cost.” However, DCAA did not take any
exceptions as they were not tasked to evaluate the items for allowability or to
offer an audit opinion. DCAA stated in its report that “The reported findings do
not include an audit opinion.”

On March 22, 2005, a DTRA contracting specialist requested that DCAA verify
other direct costs to supporting documentation. However, DCAA could not verify
approximately 50 percent of the proposed ODCs due to the lack of supporting
documentation. DCAA Report No. 6161-2005B28000705, “Application of
Agreed-Upon Procedures for Defense Enterprise Solutions (DES) Advisory and
Assistance Services (A&AS) Proposal,” May 5, 2005, stated that regarding other
direct costs, “We verified the proposed other direct costs to the vendor quotes,
actual accounting records. Due to some of the proposed other direct costs were
not based on adequate supporting documentation, we were unable to verify the
proposed costs and have noted differences in this report.”

We also note that the ODCs include replacement of personal computers on a
3-year cycle at a proposed cost of $792,000. We do not consider it good
management to use Government funds to replace the contractor’s computers in
the third year of a 4-year contract.

Had all 20 companies that expressed an interest in this contract been aware that
they would have been directly reimbursed for all business start-up costs, a
different competitive environment would have existed than the environment that
resulted in one bid from the incumbent contractor. Considering that the
incumbent contractor is a large, well-established major defense contractor, we
consider it unconscionable that the contracting officer would include these ODCs
in this contract.

Acceptance of Profit Rates. Profit or fee is the amount paid over and above
allowable costs to a contractor for contract performance. Contracting officers
usually use a structured approach such as the weighted guidelines method for
developing a fee objective on any negotiated contract action. The weighted
guidelines method focuses profit analysis on four factors: performance risk,
contract type risk, facilities capital employed, and cost efficiency. However, a


                                          9

structured method is not required for cost-plus-award-fee contract actions. In
addition, competitive contracts do not require the contracting office to perform a
profit analysis when the price is based on adequate competition.

        The Combat Support and Technology Development task orders are cost-
plus-award-fee contract actions and as such do not require a structured fee
development. The negotiated award fee on both tasks is 11 percent with no base
fee. The contracting officer does not justify the 11 percent fee other than stating
that the Integrated Product Team process negotiated the fee down from the
originally proposed amount of 12 percent. Considering that the performance risk
of an A&AS contract is low, the contract type risk of a cost-plus contract is very
low, and that the contractor is being directly reimbursed for all facility costs on
this contract, we consider an 11 percent award fee abnormally high.

        The CB and Combating WMD task orders are both cost-plus-fixed-fee
contract actions and do require structured fee development. The negotiated fixed
fee on both of these tasks is 8.5 percent of estimated labor costs. Using weighted
guidelines, DTRA developed a fee objective of 8.0 percent. The fee objective
was based on a 7.0 percent value for the performance risk profit factor that is
considered a high value. That value was based on the contractor’s good record of
past performance as well as the high degree of integration and coordination
required for the efforts. The final negotiated percentage for both task orders was
agreed upon at 8.5 percent. To provide a higher performance risk value because
of past performance is a correct use of weighted guidelines; however, the value
given should have been a middle value given the generally low performance risk
of A&AS contracts. In addition, as stated earlier, the contract type risk is very
low and the contractor is being directly reimbursed for all facility costs. A
10 percent fee is the maximum allowed by law on this type of contract. We
consider an 8.5 percent fee abnormally high.

       We recognize that it is in the Government’s best interest to offer
contractors opportunities for financial rewards sufficient to stimulate efficient
contract performance and to attract business concerns to Government contracts.
We also recognize contracting officers must have discretion to be able to
negotiate fee amounts on contracts. But when contract prices are negotiated after
informing a contractor that it is the sole negotiator, all prices are suspect. On this
contract, the contracting officer does not sufficiently justify the high profit rates
that were negotiated in a noncompetitive environment.

Determination of Fair and Reasonable Prices. The contracting officer did not
have a basis for his determination of price reasonableness. FAR Part 15,
“Contracting by Negotiation,” requires contracting officers to certify that the
prices on each contract are fair and reasonable. On each of the first four task
orders of this contract the contracting officer used the same wording on his
certification paragraph:
       Based upon the results of the competitive solicitation and proposal and
       the resulting agreements of the Integrated Process Team (IPT’s) and
       the corresponding evaluations by Government personnel, the
       undersigned Contracting Officer has determined the estimated cost and
       fixed fee is fair and reasonable.



                                         10 

           On this contract, although many companies expressed interest, only one proposal
           was received and it came from the incumbent contractor. Without informing
           other prospective companies, contract prices and technical approaches were
           negotiated after numerous deficiencies were discovered in the initial proposal.
           The Integrated Process Team3 was composed of Government officials and
           representatives of the sole offeror. The agreements made occurred after notifying
           the team that the selection board had been dissolved and there was only one
           offeror. Because of the circumstances of the award, we do not believe that there
           was an expectation that multiple proposals would be received or that agreements
           were made with the Integrated Process Team in a competitive environment.

           Regarding corresponding evaluation by Government personnel, the technical
           evaluations of the first four task orders stated that two task orders needed more
           information and that the offeror did not understand the complexities and scope of
           the other two task orders. The DCAA report on this contract did not offer an
           audit opinion; it only verified costs and was unable to verify many of those costs
           because of a lack of documentation.


FAR A&AS Contract Guidance
           Although DTRA initially used competitive procedures to solicit RFPs, prior to
           award of the A&AS contract, DTRA notified the contractor that DTRA was
           entering into direct negotiations only with NGIT and proceeded to develop a
           revised final proposal in partnership with NGIT. Therefore, DTRA did not use
           full and open competition procedures to award this contract and these actions cast
           doubts on the value the Government is receiving from this contract. The
           proposed contract effort increased significantly after the Government informed
           the contractor that it was the sole offeror. However, there was no documentation
           of technical reviews of the revised final proposed tasks. The negotiation methods
           used cast doubt as to whether those tasks were efficiently designed or cost
           effective. The tasks on this contract should be recompeted in a competitive
           atmosphere as soon as possible.

           In addition, the contracting officer did not conform to the intent of FAR guidance
           concerning A&AS contracts when developing the contract. FAR 16.504(c)(2)
           states that the Government prefers multiple-award contracts for A&AS if the
           contract is an indefinite-quantity contract that exceeds 3 years and $11.5 million
           including all options. If a multiple-award contract is not used, the contracting
           officer or other official designated by the head of the contracting activity must
           include the reason why in its acquisition planning documentation. The DTRA
           Acquisition Plan for Advisory and Assistance Services, July 23, 2004, states:
                   Despite FAR’s preference for multiple awards for A&AS, IDIQ
                   contracts that exceed 3 years and $10 million, a single award was
                   chosen because “Agency Integration and Synergy” was named as one
                   of the key program objectives by DTRA senior leaders during

3
    DTRA contract documentation uses “Integrated Product Team” and “Integrated Process Team”
    interchangeably.



                                                   11 

           acquisition planning. Because of DTRA’s special mission to reduce
           the threat of weapons of mass destruction, many of the programs
           managed by the Agency are unique, highly technical, and interrelated.
           For these reasons, it is more practicable to have one contractor assisting
           senior leadership to promote coordination, cooperation, and
           communication between the directorates, so that tasks are not
           duplicated, resources are appropriately allocated, and programs are
           properly executed.

    The DTRA Acquisition Plan does not provide an explanation of how a
    multiple-award contract would negatively affect “agency integration and
    synergy.” The plan also does not explain why a single contractor can better
    handle the unique, highly technical, and interrelated tasks associated with
    reducing the WMD. The initial four A&AS tasks cover program management,
    scientific, medical, and military functions. Although the tasks may be
    interrelated, logic dictates more expertise could be found among several
    commercial entities than in a single Defense contractor. The contracted tasks are
    for advice and assistance to Government officials assigned the responsibility of
    safeguarding America’s interests from WMD. For one company to provide such
    a multitude of A&AS tasks on a Defense contract of this magnitude raises
    additional questions as to whether all advice and assistance being provided on
    these complex inherently Governmental tasks are in the best interest of the
    Government. Competition among several companies would preclude those
    doubts. This is exactly the type of A&AS contract the FAR addresses when it
    provides a strong preference for multiple-award contracts.


Conclusion
    Contrary to FAR guidance, DTRA awarded a large A&AS single-source, IDIQ
    contract to its incumbent contractor, a contractor that has been supplying the same
    type of services to DTRA and its predecessors for a very long time. DTRA
    informed the incumbent contractor that it was the sole company negotiating and
    then proceeded to negotiate the technical approach and cost of the contract in
    what essentially was a sole-source environment. DTRA is reimbursing contractor
    expenses on a cost-plus basis including $10.2 million to procure dedicated
    facilities and $792,372 to obtain initial IT equipment and replace the equipment
    within a 3-year period. Considering that there is an entrenched DTRA A&AS
    contractor, competition on any single-source, IDIQ contract for those services
    will be difficult to obtain. However, a multiple-award, IDIQ contract will ensure
    that the most efficient and effective commercial organizations have a chance to
    compete for project management, scientific, medical, and military advice, and
    assistance tasks; and the resultant competition will ensure that the Government
    receives fair and reasonable prices. We substantiated six of the allegations (see
    Appendix B).




                                              12 

Management Comments on the Finding and Audit Response
    Management Comments. The Director, DTRA nonconcurred with the
    recommendations and requested the report not be issued, as DTRA officials
    complied with the FAR. The Director stated that the report lacked factual
    evidence and did not support the conclusions that DTRA violated any regulations.
    Further, negotiations led to lower labor rates and profit percentages than
    originally proposed, and the contract was in the best interest of the Government.
    The Director questioned the methodology used by the audit team stating that the
    auditors did not conduct interviews with the acquisition team and relied on
    contract file documentation. DTRA officials provided factual corrections to a
    “Discussion Draft” of the report.

    Audit Response. Rather than lower labor rates through negotiations, DTRA
    officials worked with the incumbent contractor to develop tasks with labor hours
    and labor rates that bore little resemblance to those proposed on the contractor’s
    initial proposal. This is discussed in more detail below. The methodology used
    for this audit was not unusual for an audit of specific Hotline allegations. The
    allegations we received contained support information that referred to specific
    documents that were required to be in the contract file. For some of the
    allegations, we were simply verifying that the documents we were given to
    support the allegations were, in fact, copies of the official documents contained in
    the contract file. The person who made the allegations was familiar with the
    solicitation, negotiations, and final contract awarded for advisory and assistance
    services to support DTRA. As stated in the report, we believe that the evidence
    obtained provides a reasonable basis for our findings and conclusions. We
    conducted this audit in accordance with generally accepted government audit
    standards.

    Management Comments. The Director, DTRA nonconcurred with the finding
    that the revised final proposal was substantially different from the solicitation.
    The Director stated that the statement of objectives, contract ordering period, and
    period of performance were consistent for the original RFP and awarded contract.
    The number of labor hours for the task orders increased. However, DTRA
    officials negotiated lower labor rates and profit percentage. The Director states
    that as a result, the total cost decreased by 13.88 percent. Therefore, officials
    found it appropriate to award the contract based on the negotiations.

    Audit Response. On an IDIQ contract, there is a basic contract that contains task
    orders with specifications agreed to under the basic contract. Each task order
    awarded under the basic contract contains a statement of work for the specific
    effort to be performed in accordance with the specifications of the task order. As
    explained in our report, the request for proposal associated with this contract
    requested contractors to provide technical and cost proposals in four areas
    expected to result in the award of four task orders concurrently with the award of
    the basic contract. The Director’s contention that because the contract ordering
    period and contract period of performance of the basic contract did not change,
    the contract proposal did not change substantially is without merit because each
    task order did change. Reviews of individual task orders showed substantial
    changes in both labor hours and labor costs. For instance, the initial proposal for


                                         13 

the Combat Support task order contained 144,862 labor hours, or approximately
71 man-years of effort, at an average cost of $358.94 per hour while the revised
final proposal contained 433,946 labor hours, or approximately 213 man-years of
effort, at an average cost of $91.83 per hour. The DTRA comments suggest that
the initial proposal was submitted in a competitive environment and therefore
needs no further analysis to determine that the number of labor hours and cost
submitted are the best value for the Government. Also the comments state that no
further analysis of labor hours and cost per hour should be conducted on the
revised final proposal to determine whether a fair and reasonable price was
obtained for this effort because the cost of that effort is less than in the initial
proposal, and that the final revised proposal represents considerable savings to the
Government obtained through negotiation. Our view is that a change from
71 man-years of effort to 213 man-years of effort is so significant from the
originally proposed task order that other contractors should have been provided
another chance to bid on this effort and that there is no way to determine whether
the revised final proposal was fairly and reasonably priced. Claimed savings are
suspect because negotiation alone cannot explain how labor hours and labor cost
can change so drastically. Finally, if the proposal had been re-competed, other
contractors may have bid on the effort when it became obvious that the incumbent
contractor did not understand the scope of the assistance and advisory services
that were required by DTRA.

Management Comments. The Director, DTRA nonconcurred with the finding
that officials informed the contractor it was the only company in negotiations and
stated that the acquisition was a competitive solicitation. The original RFP
allowed for discussions with offerors determined to be in the competitive range,
so the officials’ decision to enter into negotiations was consistent with the RFP.
Officials violated no regulations. Negotiations occurred with the intent of
receiving a revised proposal, as allowed by the FAR. The requirement did not
change, only the level of effort changed.

Audit Response. As stated in our report, on May 20, 2005, the DTRA
contracting office informed NGIT that “DTRA will enter into negotiations only
with NGIT, via an Integrated Product Team.” After informing the contractor that
it was the only company in negotiations, DTRA and NGIT proceeded to develop
task orders that had little resemblance to the task orders contained in the initial
proposal. This level of revision is not standard negotiations as referred to in the
FAR. The revised final proposal cannot be regarded as a document produced or
received in a competitive environment.

Management Comments. The Director, DTRA nonconcurred with the finding
that the competitive environment changed with the acceptance of ODCs. DTRA
officials complied with FAR to determine ODCs were fair and reasonable. The
RFP informed offerors of the requirement to assist DTRA officials within
30 minutes after requested and the responsibility of providing office space. The
FAR allows rental and equipment costs and those costs may be charged as direct
costs. The Director states charging such items as direct cost is the generally
preferred method. Also, ODCs charge no fee; however, if the costs were indirect
expenses, fees could be charged. Charging facility costs as ODCs is an accepted
business practice. The DCAA Contract Audit Manual Part 7-303, June 29, 2007,



                                    14 

prefers identifiable costs be charged to the contract. Further, the ODC facility
cost decreased by $2.1 million. DCAA took no exceptions to the proposed costs.

Audit Response. The conditions of this contract allowed NGIT to lease and
furnish new office space to support DTRA A&AS. At Government expense,
NGIT furnished its office spaces far better than most Government office spaces as
allowed costs included dishwashers, microwave ovens, refrigerators, and other
break room furniture. Curiously, DTRA management has commented on this
allegation by quoting DCAA Contract Audit Manual Part 7-300, a section that
addresses the cost of special facilities such as wind tunnels and space chambers.
We are discussing fully funding a major contractor to lease and furnish new office
space. The requirement in the solicitation for offerors “to maintain the ability to
provide support to DTRA within 30 minutes after requests” in no way obligates
the Government to fully fund the cost of a new office building and furnishings.
Also, provisions such as RFP Provision H11 that states offerors will be
responsible for providing office space in the performance of the contract are
usually interpreted as meaning the offeror will not be directly reimbursed for the
cost of the office space. The DTRA comments also state that DCAA took no
exception to the proposed costs and their direct application to the proposal;
however, as stated in our report, DCAA was not tasked to evaluate “other direct
costs” for allowability and was unable to verify the cost of approximately
50 percent of proposed other direct costs because of missing documentation. The
point of the allegation is not that DTRA cannot reimburse a contractor for all
startup and operating costs; but that if the solicitation was clearer on this point, a
much more competitive environment would have existed.

Management Comments. The Director, DTRA nonconcurred with the finding
that the contractor received high profit rates. He stated that the contracting officer
properly justified the negotiated profit rates. The report subjectively determined
the rates were high and did not state what is high versus normal. The Director
does not consider the contract for support in protecting America from WMDs to
be a low risk venture. Further evidence of importance is that key DTRA officials
coordinated the contract. The acquisition plan identified a moderate technical and
schedule risk.

The original proposal contained a fixed fee of 10 percent. Using weighted
guidelines, DTRA officials used 8 percent, based on a value of 7 percent for the
technical and management risk factors. Though 7 percent represents the higher
end of the standard range, it was based on the contractor’s past performance and
effort needed. DTRA officials negotiated an 8.5 percent fee, which excluded
ODCs. The fee is significantly lower then the maximum 10 percent of the
contract’s estimated cost allowed under the FAR. The award fee was also within
guidelines. The DoD FAR Supplement establishes a 3 percent limit on the base
fee, with no limit on the amount of award fee. The FAR states the award fee is
based upon judgment. The fee was 9.84 percent of total estimated costs, with the
11 percent referred to in the report based only on labor costs. The contracting
officer justified the fees in the memorandum for the record cost review of task
order 2. The memorandum for the record states the fee was developed according
to guidelines, the fee was negotiated, and the original fee was proposed in a
competitive environment. Also the fee is 9.84 percent when ODCs are included.



                                     15 

Task order 1 includes a similar analysis. Therefore, the Director states it was the
contracting officer’s judgment that the fee was acceptable.

Audit Response. We agree with the Director, DTRA that whether profit rates are
high or low is a subjective determination. However, for the reasons outlined in
our report, we stand by our determination that the profit rates for this A&AS
contract are abnormally high. We also agree that protecting Americans from
WMDs is a high risk venture; however, the A&AS contractor is not taking a high
risk.

Management Comments. The Director, DTRA nonconcurred with the finding
that officials certified that contract prices were fair and reasonable based on
competitive contract award although the contract was not competitively awarded.
He stated that DTRA followed the FAR for competitive solicitation, with the
contracting officer determining the costs and fees as fair and reasonable, based on
competitive solicitation and the revised proposal. The March 2005 FAR, in effect
at the time, states that price is based on adequate price competition if there was a
reasonable expectation of competition, even if only one bid was received. The
Director stated that DTRA officials expected competition. To encourage
competition, DTRA officials offered organizational conflict of interest provisions,
so that potential contractors could still maintain eligibility as DTRA performers;
requested contractors to comment on contracting methods and structures; and
used contractor feedback to obtain recommendations on making the acquisition
competitive.

The Director, DTRA stated that the report leads toward the conclusion that costs
were not fair and reasonable. Information within the contract files leads to a more
comprehensive analysis. The report states that labor hours increased 71 percent
from the original proposal to the negotiated proposal, which implies DTRA
officials did not negotiate a fair and reasonable price. However, labor costs
consist of labor hours and labor rates. DTRA officials negotiated an additional
988,341 hours and a 13.88 percent decrease in labor costs from the initial
proposal. Discussing only labor hours without the decrease in labor rates gives
the impression that DTRA officials negotiated significant labor costs. The
Director states that DTRA officials negotiated fair and reasonable documented
task order costs.

Audit Response. The Director, DTRA contends that although the only proposal
received was from NGIT, an incumbent contractor, there was an expectation of
competition and therefore, the proposal was received in a competitive
environment and all prices in the proposal can be considered fair and reasonable
based on a competitive contract award. We contend that for all the reasons listed
above and in the report, the revised final proposal upon which the contract award
was based was so different from the initial proposal that DTRA cannot claim the
revised final proposal was received in a competitive environment. In addition, the
quality of the initial proposal was so deficient as evidenced by two task order
technical evaluations stating “the offeror [NGIT] failed to understand the
complexities and scope of the technical aspects of the CB [Chemical Biological]
Non-Medical Program [and the CB Medical Program]” and labor prices that were
up to three times higher than what was finally agreed upon that the initial
proposal should not have been considered in a competitive range whether other


                                     16 

    proposals were received or not. As stated earlier, the revised final proposal
    cannot be regarded as a document produced or received in a competitive
    environment.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director of the Defense Threat Reduction Agency:

           1. Terminate contract HDTRA1-5-D-0003 at the end of the current
           option period in October 2007.

           Management Comments. The Director, Defense Threat Reduction
           Agency nonconcurred with the recommendation and stated that the
           Defense Threat Reduction Agency complied with the Federal Acquisition
           Regulation, statutes, and regulations in the award of the contract.
           Knowledgeable senior level personnel made the acquisition decisions.
           The report failed to: recognize Government benefits the Defense Threat
           Reduction Agency obtained; appreciate the intolerable consequences on
           the mission; and recognize the impractical time frames to execute a new
           competition.

           Audit Response. Our review validated Hotline allegations that Defense
           Threat Reduction Agency contract HDTRA1-05-D-0003 was awarded
           based on a final revised proposal that was significantly different from
           requirements contained in the contract solicitation; that contracting
           officials did not provide for full and open competition through the use of
           competitive procedures contained in the Federal Acquisition Regulation
           for source selection; that the contracting officer certified that contract
           prices were fair and reasonable based on a competitive contract award
           although the contract was not competitively awarded; that the contracting
           officer did not negotiate fair and reasonable prices; that the contracting
           officer did not adequately evaluate contract “other direct costs” resulting
           in significant unnecessary costs to the Government; and that officials did
           not determine reasonable profit rates and awarded the contract with
           abnormally high profit rates. The most cost advantageous step for the
           Government that can be taken at this time is to terminate the contract at
           the end of the current option period as recommended. We request the
           Director, Defense Threat Reduction Agency reconsider his response and
           provide a plan by October 26, 2007, to terminate this contract.

           2. Compete a multiple-award, indefinite-delivery, indefinite-quantity
           contract for Defense Threat Reduction Agency advisory and
           assistance services in accordance with FAR 16.504.

           Management Comments. The Director, Defense Threat Reduction
           Agency nonconcurred with the recommendation and stated the Defense
           Threat Reduction Agency complied with Federal Acquisition
           Regulation 16.504 in determining that a single award contract was in the


                                        17 

best interest of the Government. Senior leaders within the Defense Threat
Reduction Agency thoroughly reviewed the use of single-award versus
multiple-award contracts and determined single-award was the best
approach, which the Federal Acquisition Regulation allows. Officials at
the Defense Threat Reduction Agency approved the document to support
the decision and compliance with the Federal Acquisition Regulation.
The Director stated that the report does not identify any procedures not
followed.

The Defense Threat Reduction Agency followed Federal Acquisition
Regulation guidelines. The Defense Threat Reduction Agency uses the
advisory and assistance services contract for highly technical expertise on
a continuous basis to support staff with mission demands. The Director
stated that it would be impractical, and also would hurt the mission, to
compete each task between multiple-award contracts.

Audit Response. In its contract documentation, the Defense Threat
Reduction Agency officials conceded that the Federal Acquisition
Regulation has a preference for multiple awards for advisory and
assistance contracts. However, Defense Threat Reduction Agency
officials have yet to present a cogent argument that the Defense Threat
Reduction Agency and the Government are better served by a single-
award indefinite-delivery, indefinite-quantity contract than by a multiple-
award indefinite-delivery, indefinite-quantity contract. Defense Threat
Reduction Agency officials stated that they complied with Federal
Acquisition Regulation provisions because a paragraph (that is quoted
verbatim in our report, page 11) was included in the Acquisition Plan that
was approved by senior officials. However, this paragraph does not
explain why the Defense Threat Reduction Agency will be better served
by a single contractor reimbursed for all advisory and assistance tasks on a
cost-plus basis than they would be by competing tasks among several
responsible contractors.

Regulatory contractual procedures exist to ensure the Government
receives goods and services at fair and reasonable prices. For this
contract, Defense Threat Reduction Agency officials did issue a
solicitation in a competitive environment. However, the Defense Threat
Reduction Agency did not receive a responsive proposal from any
contractor and cannot claim its advisory and assistance contract was
awarded on a competitive basis. Rather than work on a new solicitation
after receiving no responsive bids, Defense Threat Reduction Agency
officials worked with its incumbent contractor to develop a contract that
did not resemble the original solicitation, that was not competed, that
reimbursed the contractor for unnecessary costs, that had abnormally high
profit rates, and that did not contain verifiable fair and reasonable prices.

The procedures by which the revised final proposal was developed are not
in compliance with the Federal Acquisition Regulation. The resultant
contract should be terminated and a new competitive contract should be
awarded. There are many companies capable of providing advisory and
assistance services required by the Defense Threat Reduction Agency,


                             18 

especially if tasks are for single areas of expertise such as chemical-
biological medical support. We are confident that a multiple-award
contract will convey to Defense Threat Reduction Agency officials all the
advantages of a competitive business environment, while a single-award
contract with a long-time support contractor will continue to raise
questions of efficiency and fairness of costs. We request the Director,
Defense Threat Reduction Agency to reconsider his response and provide
a plan by October 26, 2007, to award a multiple-award contract for
advisory and assistance services.




                            19 

Appendix A. Scope and Methodology 

    We conducted this performance audit from October 2006 through June 2007 in
    accordance with generally accepted government auditing standards. Those
    standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based on our audit
    objectives.

    This audit was a review of Defense Threat Reduction Agency (DTRA)
    contracting methods. We performed the audit in response to allegations to the
    Defense Hotline. As a result, we reviewed contract HDTRA1-05-D-0003 and the
    contract procedures.

    Our audit included six major areas of review. Our review concentrated on the
    solicitation, competition, price reasonableness, other direct costs, profit, and
    funding of contract HDTRA1-05-D-003. Initial audit work was performed at
    DTRA. We reviewed documentation maintained by the contracting officials to
    support contract HDTRA1-05-D-0003. The documents reviewed included the
    basic contract, eight task orders, initial proposal, revised proposal, Defense
    Contract Audit Agency (DCAA) reviews, DTRA acquisition plans, Integrated
    Product Team Summaries, price negotiation memorandums, statements of
    objectives, technical evaluations, and other miscellaneous correspondence. Much
    of the information was obtained from copies of the contracting file received from
    DTRA. Information was also received from the Defense Hotline allegations.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in DoD. This
    report provides coverage of the “DoD Contract Management” high-risk area.


Prior Coverage
    During the last 5 years, the DoD Inspector General (IG) and DCAA have issued
    two reports discussing the Defense Threat Reduction Agency. Unrestricted DoD
    IG reports can be accessed at http://www.dodig.mil/audit/reports.


DoD IG
    DoD IG Report No. D-2004-111, “Cooperative Threat Reduction Contracts
    Awarded by the Defense Threat Reduction Agency in Support of the Cooperative
    Threat Reduction Program,” August 25, 2004



                                       20 

DCAA
   DCAA Report No. 6161-2005B28000705, “Application of Agreed-Upon
   Procedures for Defense Enterprise Solutions (DES) Advisory and Assistance
   Services (A&AS) Proposal,” May 5, 2005




                                     21 

Appendix B. Allegations
   The following seven allegations were made to the Defense Hotline concerning
   contracting methods of DTRA. The allegations were in regard to contract
   HDTRA1-05-D-0003.

          •	 The final NGIT proposal that resulted in the contract award was
             significantly different from the DTRA requirements contained in the
             contract solicitation. A contract RFP containing the contract
             specifications that were awarded would likely have resulted in a
             competitive environment for contract award.

          •	 The DTRA contracting officials did not provide for full and open
             competition through the use of competitive procedures contained in
             the FAR for source selection.

          •	 The contracting officer certified that contract prices were fair and
             reasonable based on a competitive contract award although the
             contract was not competitively awarded.

          •	 Negotiations for contract direct costs, other direct costs, and labor
             rates occurred during meetings of the Contract Integrated Product
             Team (a combination of NGIT and Government employees) after
             NGIT was aware that it was the only contractor submitting a proposal
             and that NGIT would be awarded the contract. Therefore the DTRA
             contracting officer did not negotiate fair and reasonable prices with
             NGIT.

          •	 The contracting officer did not adequately evaluate contract “other
             direct costs” resulting in significant unnecessary costs to the
             Government such as the costs of procuring a dedicated building for
             NGIT contractors working on the DTRA effort.

          •	 DTRA officials did not determine reasonable profit rates and awarded
             the contract with abnormally high profit rates considering the type of
             contract used and the risks involved in the contract effort.

          •	 DTRA officials improperly co-mingled Operations and Maintenance
             and Research, Development, Test, and Evaluation appropriated funds
             on contract tasks.

   We substantiated the first six allegations. We did not substantiate the allegation
   on improperly co-mingling Operations and Maintenance and Research,
   Development, Test, and Evaluation appropriated funds on contract tasks.




                                        22 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Threat Reduction Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          23 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      24 

Defense Threat Reduction Agency Comments


                               Defense Threat Reduction Agency
                                 8725 John J. Kingman Road, MSC 6201
                                      Fort Belvoir, VA 22060-6201
                                                                            AUG 2 7 2007



     MEMORANDUM FOR PROGRAM DIRECTOR, ACQUISITION AND CONTRACT
                      MANAGEMENT, OFFICE OF THE DEPARTMENT OF
                      DEFENSE INSPECTOR GENERAL

     SUBJECT: DoDIG Draft Report on Hotline Allegations Concerning the Defense Threat
              Reduction Agency Advisory and Assistance Service Contract (Project No.
              D2006-D000CF-0262.000, Draft Report ­ July 13, 2007)

            This Memorandum is the Defense Threat Reduction Agency (DTRA) response to
     your July 13, 2007, draft audit report and request for review and comment to the report
     findings and recommendations.

            The following feedback is provided to the report findings and recommendations:

               a. DoDIG Draft Report Recommendation 1. "Terminate contract
     HDTRA-5-D-0003 (sic) at the end of the current option period in October 2007."

                     DTRA Response: Nonconcur. The DoDIG draft report does not support
     this recommendation. DTRA complied with the Federal Acquisition Regulation (FAR)
     in the solicitation, evaluation, and award of the contract for Agency-wide advisory and
     assistance services (A&AS). The report contains no factual findings that support the
     allegation that DTRA violated any statute or regulation in the award of the contract. The
     report does not mention relevant portions of the official contract file documentation and
     facts provided to the audit team that substantiate DTRA's position. Acquisition decisions
     were made at the most senior levels within the Agency and were based on sound business
     and acquisition principles, knowledge, and experience with the DTRA mission and the
     complexities of this requirement. The report fails to recognize the Governmental benefits
     of DTRA's approach which include a reduction in contractor fees and facility costs from
     what was originally proposed and the fact that the Government received 988,341
     additional hours of support for 13.88 percent less cost than the original proposal which
     was submitted in a competitive environment. The report fails to appreciate the
     intolerable consequences on DTRA's mission or the practicality of executing the
     timeframe of this recommendation.

                   b. DoDIG Draft Report Recommendation 2. "Compete a multiple-
     award, indefinite-delivery, indefinite-quantity contract for Defense Threat Reduction
     Agency advisory and assistance services in accordance with FAR 16.504."




                                                25
                D T R A R e s p o n s e : N o n c o n c u r . DTRA complied with all provisions of the
FAR 16.504(c)(2)(i)(a) in determining that a single-award indefinite-delivery, indefinite-
quantity (IDIQ) contract was in the best interest of the Government. The official contract
file contains substantial evidence that the single-award versus multiple-award issue was
analyzed at numerous acquisition strategy meetings, both internal to the Government and
with prospective offerors. A single-award was agreed to be the best approach for DTRA
by several senior leaders throughout the Agency. In addition, DTRA benchmarked with
other DoD agencies with similar missions and requirements to learn from their
experience. The FAR clearly allows for the discretion to issue a single-award IDIQ
contract as it specifies the procedures to document the decision. The required
documentation to support the determination was approved at the appropriate level within
the Agency and is in full compliance with the requirements of the FAR. The DoDIG
report does not identify any provision or regulatory procedure that was not followed by
the contracting officer and/or the senior designated official in making this determination.

               DTRA consistently followed the FAR guidelines in accomplishing this
acquisition. FAR 16.504(c)(l)(ii)(A)(4) states that the contracting officer should
consider the ability to maintain competition among the awardees throughout the contract
period of performance when determining if multiple-awards are appropriate. A&AS
support at DTRA predominately entails providing highly technical expertise to support
four distinct Enterprises and various Staff Offices. Each Enterprise and Staff Office
utilizes A&AS support on a continuous basis to assist with numerous mission demands.
The ability and flexibility to integrate this support is vital. It is impractical and would be
a degradation of the execution of these missions to compete each distinct tasking or
project among multiple-award contract holders.

               I respectfully request in light of the information provided, that the DoDIG
dismiss all findings and recommendations. DTRA complied with all FAR provisions for
making and documenting the decision that a single-award IDIQ contract was in the best
interests of the Government, and we will do the same with follow on contracts to
determine if circumstances warrant multiple-award contracts. Please refer to the attached
detailed response to every finding and statement contained in the draft report. If you
require further assistance, please contact Mr. Kenneth Harsha at (703) 767-7890 or Ms.
Shari Durand at (703) 767-7900.




                                                  James A. Tegnelia


Attachment:
As stated



                                                 2




                                                26
       Defense Threat Reduction Agency (DTRA) Response to DoDIG Draft Report
                         Project No. D2006-D000CF-0262.000

DTRA nonconcurs in the recommendations in Draft Report Project No. D2006-D000CF-
0262.000. The draft report does not support the conclusion that DTRA violated any
statutes or regulations in award of the Agency-wide Advisory and Assistance Services
(A&AS) contract. The draft report lacks factual evidence to support the claim that
DTRA used flawed techniques that were in conflict with the Federal Acquisition
Regulation (FAR). On the contrary, as a result of our negotiations, the task orders
included lower labor rates per hour and a lower profit percentage than those originally
proposed in response to the competitive solicitation. The reality is that entering into
negotiations was indeed in the best interest of the government.

DTRA questions the methodology employed by the audit team based on the large number
of discrepancies and factual errors in the draft report. The DoDIG team did not conduct
any interviews with key members of the acquisition team; instead, it relied solely on a
review of contract file documentation which the DoDIG team copied and took with them
after an initial visit to DTRA. The audit team submitted their "Discussion Draft of a
Proposed Report" on June 12, 2007 requesting DTRA respond to factual omissions.
Subsequent to receiving DTRA's response, "DTRA Factual Corrections Discussion Draft
of Proposed Report Project No. D2006-D000CF-0262" in which key omissions were
highlighted and forwarded to the DoDIG Project Manager on June 27, 2007, the DoDIG
team requested specific contract file documentation. For example, on July 5, 2007, the
DoDIG requested file verification that NGIT proposed facility costs in its original
proposal. Copies of the proposal, which documented that facility costs were indeed in
NGIT's original proposal, were transmitted to the DoDIG on July 5, 2007. The DoDIG
findings related to ODC facility costs are nevertheless still included in this draft report.
While it was evident that the DoDIG team did not originally review the complete contract
file, it appears that they still have not considered all relevant contract file documentation
in this draft report.

Additional information is provided below to substantiate DTRA's position. These
comments stem from the findings that were summarized on page 3 of the DoDIG Draft
Report.

Finding

          •   Based the contract award on a revised final proposal developed by the
              contractor with DTRA assistance that was substantially different than
              requirements contained in the contract solicitation.

DTRA nonconcurs with the above finding.

DTRA Response: DTRA issued a Request for Proposal (RFP) for A&AS with a 5 year
ordering period and a ceiling amount of $375 million. The resultant contract award was
executed for the aforementioned services with the identical Statement of Objectives
(SOO) issued with the RFP. The contract ordering period and contract period of
performance were consistent between the original RFP and the resultant contract. While




                                           27
                          DTRA Response to DoDIG Draft Report
                           Project No. D2006-D000CF-0262.000

the level of effort to meet the task order SOOs and task order requirements were revised
during Integrated Product Team (IPT) negotiations, the requirements of the contract did
not change. DTRA negotiated a change to the level of effort required to meet the mission
requirements, but the requirement itself did not change. As a result of the IPT
negotiations, the awarded task orders included lower labor rates per hour and a lower
profit percentage than that originally proposed in response to the competitive solicitation.
Specifically, the Government was able to increase the labor hours for this effort and
decrease the labor rate by 48.75 percent, thereby decreasing the labor costs by 12.49
percent. As a result, the total acquisition cost was decreased by 13.88 percent.
Therefore, it is both appropriate and reasonable that DTRA would award a contract based
upon a final proposal developed as a result of negotiations.

Finding

           •   Negotiated contract prices and terms using the final revised proposal
               after informing the contractor that it was the only company in
               negotiations with DTRA.

DTRA nonconcurs with the above finding.

DTRA Response: The A&AS acquisition was solicited as a competitive acquisition
according to FAR 15.002(b). Although only one proposal was received, it was submitted
in a competitive environment. DTRA conducted the evaluation, negotiation and award of
the contract in a competitive environment. Section M2.9 of the original RFP instructed
offerors to "submit its best proposal as the opportunity to submit a revised proposal is not
anticipated." However, Section M2.9 also notified offerors that "if during the evaluation
period it is determined to be in the best of the Government to hold discussions, these
discussions will be held with only those offerors determined by the Contracting Officer to
be in the competitive range." DTRA's decision to enter into negotiations with the only
offeror (therefore the only offeror within the competitive range) was consistent with the
intent of the RFP. Neither the FAR, nor the RFP, were violated by DTRA's decision to
enter into negotiations with the only offeror in the competitive range and by the
utilization of the IPT process.

Negotiations were undertaken with the intent of allowing the offeror to revise its proposal
as is standard practice and supported by the FAR. Throughout these discussions,
DTRA's requirement (Agency A&AS support for a period of 5 years) did not change.
DTRA negotiated a change to the level of effort required to meet the mission
requirements. As a result of the IPT negotiations, the awarded task orders included lower
labor rates per hour and a lower profit percentage than that originally proposed in
response to the competitive solicitation. Specifically, the Government was able to
increase the labor hours for this effort and decrease the average labor rate by 48.75
percent, thereby, decreasing the labor costs by 12.49 percent. As a result, the total
acquisition cost was decreased by 13.88 percent.

                                             2




                                           28
                          DTRA Response to DoDIG Draft Report
                           Project No. D2006-D000CF-0262.000



Finding

           •   Accepted "other direct costs" in the revised final proposal that would
               have changed the competitive environment if those requirements had
               been included in the initial RFP.

DTRA nonconcurs with the above finding.

DTRA Response: DTRA complied with the regulations by requesting and using field
pricing support according to FAR 15.404-2 and conducting cost and price analysis
according to FAR 15.404-1 to determine that the contract costs, and specifically the other
direct costs (ODCs), were fair and reasonable.

Section L10.3.2 of the RFP instructed all offerors to include in their cost proposals
"estimates of all non-labor costs that will be required." Section M2.7 of the RFP
informed the offerors of the requirement to maintain the ability to provide support to
DTRA within 30 minutes after requests during business hours. In addition, RFP
provision H11, "Government-Provided Office Space," stated that the offerors would be
responsible for providing office space in the performance of the contract, unless
otherwise specified in individual task orders. Therefore, offerors were on notice that the
cost of providing nearby office facilities to satisfy the contract requirements would be an
allowable cost under the contract.

The costs associated with the accomplishment of the Government's requirement for
A&AS support, such as facility rental costs and purchase of necessary equipment such as
information technology (IT) equipment, according to FAR 31.205-36, are allowable costs
and may be charged as a direct cost to the contract consistent with the contract
requirements and contractor's accounting practices. It is entirely acceptable and in many
cases preferable for such costs to be treated as direct cost to the contract. In fact, this
method is generally preferred as it is more accurate and equitable than attempting to
distribute the costs through various indirect expense categories. Additionally, these
ODCs are not fee bearing. If the contractor proposed these costs as an indirect expense,
as the IG report recommends, the contractor would have been entitled to add fees to the
overhead costs. Although the DoDIG considers it is "unconscionable" for the contracting
officer to reimburse a large, well established major defense contractor for facility costs as
ODCs, it is an acceptable, even preferred, method of accounting for all businesses large
or small. The DCAA Contract Audit Manual Part 7-303, June 29, 2007, describes the
three basic methods for allocating facility costs. The three methods are full costing on
usage basis; only directly identifiable costs allocated on usage basis, and general indirect
cost allocation. Under the full costing on usage basis; all readily identifiable direct costs
are charged to projects, contracts or other work involved. Per the Manual, generally this



                                             3




                                           29
                         DTRA Response to DoDIG Draft Report
                          Project No. D2006-D000CF-0262.000

method yields the most equitable results and should be used if cost and usage data for the
facility can be economically accumulated with reasonable accuracy.

Further, DTRA did not accept any ODCs in the revised final proposal from the successful
offeror that were not included in the offeror's original proposal. The ODCs as originally
proposed included a total ODC facility cost of $12.3 million of which $7.4 million was
rent. The final negotiated amounts included a total ODC facility cost of $10.2M of which
$7.2M was rent. This constituted a reduction of $2.1 M. In addition to the
aforementioned facility costs, the other significant ODCs were related to
telecommunications and travel costs. The program office considered these costs
reasonable and realistic for the services to be performed. DCAA's review of the ODCs
took no exception to the proposed costs and their direct application to the proposal.

Finding

          •   Accepted abnormally high profit rates on the revised cost proposal.

DTRA nonconcurs with the above finding,

DTRA Response: The Contracting Officer properly justified the profit ratios that were
negotiated on the task orders. Exception is taken to the categorization of this profit ratio
as high as it is a subjective determination lacking substantiation as to what constitutes
high versus normal ratios. The contract provides A&AS support services for
Government officials assigned the responsibility of safeguarding America's interest from
weapons of mass destruction. Based on the magnitude of this mission and current threats,
we do not consider this a low risk venture particularly considering the potential
consequence of failure. The A&AS contractor supports critical Agency missions and is
expected to provide top level capabilities and often upon short fuse notice. The
importance of this program to the Agency is evidenced by the fact that it was coordinated
with the Head of the Contracting Activity (HCA), the Component Acquisition Executive
(CAE), and the Associate Directors of all the Agency's Enterprises and key Staff Offices.
As a result, the Acquisition Plan for this requirement identified a moderate technical and
schedule risk "attributable to the contractor's ability to recruit and retain appropriate
expertise at a reasonable cost."

Regarding the profit ratios, DTRA did not accept abnormally high profit ratios. In the
original proposal the contractor proposed a fixed fee of 10 percent for the task orders
designated as Cost Plus Fixed Fee (CPFF) orders. Through the use of the weighted
guidelines which were included in the contract file, the Agency developed a fee objective
of 8.0 percent. This was based upon providing a value of 7 percent for the Technical and
Management Risk Factors. This 7 percent represents the higher end of the standard value
range and was justified based upon the contractor's record of past performance as well as
the high degree of integration and coordination required for the effort. The final fee
percentage was agreed upon at 8.5 percent. However, it should be noted that the fixed

                                             4




                                           30
                          DTRA Response to DoDIG Draft Report
                           Project No. D2006-D00CF-0262.000

fee amount is based upon the application of the 8.5 percent to labor costs only and
excludes ODCs. Therefore, when ODCs are considered, the fee rate of return is 7.47
percent. This is significantly below the fee limitation prescribed in FAR
15.404(c)(4)(i)(C): "For other cost-plus-fixed fee contracts, the fee shall not exceed 10
percent of the contract's estimated cost." Even if the ODCs are not considered, the
negotiated fee was still within the acceptable range established in the FAR.

The negotiated rate for the award fee task orders is also within regulatory guidelines.
DFARS 216-405-2(c)(2)(B) establishes a 3 percent limit on the amount of base fee that
may be negotiated but does not establish a limit on the amount of award fee. Instead,
FAR 16.305 (b) highlights that the award fee amount is "based upon a judgmental
evaluation by the Government, sufficient to provide motivation for excellence in contract
performance..." The negotiated fee rate for the award fee task orders equates to 9.84
percent of total estimated costs. The 11 percent rate referred to in the DoDIG audit report
is based upon the application of the rate to only the labor costs. The Contracting Officer
provided justification for this rate and did not merely state that the IPT negotiated the fee
down from 12 percent. The Contracting Officer, in his Memorandum for Record (MFR),
Cost Review of Task Order 2 stated the following:

      "This fee was developed according to the provisions of FAR 16.405-2 and
      DFARS 215.404-74. Under the competitively awarded contract (DTRA01-00-C-
      0088) the fee structure allows for an award fee of 7 percent of estimated cost and a
      fixed fee based on 3 percent of the estimated cost for a total maximum fee rate of
      return of 10 percent. For the current task order Northrop Grumman Information
      Technology (NGIT) originally proposed an award fee based upon 12 percent of
      the estimated cost with no base fee. Through the IPT an award fee based upon 11
      percent of estimated cost was agreed upon. While the 11 percent is greater than
      the 10 percent maximum available under the 2000 contract, it does take into
      account the greater risk assumed by NGIT in not receiving a base fee. It should
      further be noted that the initial 12 percent fee was proposed in a competitive
      environment. It should also be noted that the award fee amount is based upon the
      application of the 11 percent to labor costs only and excludes ODCs. Therefore,
      when ODCs are considered, the fee rate of return is 9.84 percent. Similar
      language was included in the MFR, Cost Review for Task Order 1. Thus, it is the
      Contracting Officer's judgment that the fee amount negotiated is consistent with
      the FAR 16.405-2(a)(2) requirement that the award fee amount be "sufficient to
      provide motivation for excellence in such areas as quality timeliness, technical
      ingenuity, and cost-effective management."

Finding

          •   Certified that contract prices were fair and reasonable based on a
              competitive contract award although the contract was not competitively
              awarded.

                                             5




                                           31
                         DTRA Response to DoDIG Draft Report
                          Project No. D2006-D000CF-0262.000


DTRA nonconcurs with the above finding.

DTRA Response: DTRA's requirement for A&AS services was solicited in a full and
open fashion as required by FAR 6.1 and evaluated and awarded according to FAR Part
15. The only specific reference to a "conflict" with the FAR is that the Contracting
Officer violated the "intent" of the FAR, not the actual FAR provision.

The Contracting Officer determined the estimated cost and fees for the subject task orders
to be fair and reasonable based upon the proposal submitted in response to the
competitive solicitation, the offeror's revised proposals resulting from the Integrated
Process Team (IPT) negotiations, and the corresponding evaluations by Government
personnel.

The March 2005 version of FAR 15.403-1(c)(1)(h), which was in effect at the time of
this procurement, states that a price is based on adequate price competition if:

              "(ii) There was a reasonable expectation, based on market research or other
              assessment, that two or more responsible offerors, competing
              independently, would submit priced offers in response to the solicitation's
              expressed requirement, even though only one offer is received from a
              responsible offeror and if-
                     (A) Based on the offer received, the contracting officer can
                     reasonably conclude that the offer was submitted with the
                     expectation of competition, e.g., circumstances indicate that —
                            (1) The offeror believed that at least one other offeror was
                            capable of submitting a meaningful offer; and
                            (2) The offeror had no reason to believe that other potential
                            offerors did not intend to submit an offer; and
                     (B) The determination that the proposed price is based on adequate
                     price competition, is reasonable, and is approved at a level above the
                     contracting officer;"

In this instance, DTRA's market research led to the expectation that two or more offerors
would submit proposals. In addition, given the participation of 55 contractors at Industry
Day, it was reasonable to conclude that the offeror submitted its proposal with the
expectation of competition. The Component Acquisition Executive's Source Selection
Decision Document indicates concurrence that the offer was submitted with the
expectation of competition. As previously noted, even after the source selection was
dissolved and negotiations were conducted, the Government benefited from reduced
labor rates.

To encourage competition, DTRA took specific actions including:


                                            6




                                          32
                          DTRA Response to DoDIG Draft Report
                           Project No. D2006-D00CF-0262.000

       (1)    Providing maximum flexibility in the RFP's Organizational Conflict of
              Interest (OCI) provisions. OCI issues were raised as an area of concern
              from some of DTRA's "performers"; to encourage competition, DTRA
              invited the potential offerors to propose an OCI Mitigation Plan that we
              would then evaluate. This provided an opportunity for offerors who may
              previously have chosen not to compete for the DTRA A&AS contract to
              propose in response to the RFP and potentially be awarded the contract
              while still maintaining their eligibility as DTRA performers. This was done
              specifically to expand the potential field of competition.
       (2)    Specifically requested potential offerors to comment on preferred
              contracting methods and structures, i.e. multiple award, scope of contract
              (i.e., Agency-Wide, by Directorate, by Function), number of performers
              and type of contract.
       (3)    Utilized draft RFP and requested comments from industry to solicit
              recommendations to make this acquisition as competitive as possible..

The information provided in the report appears to be skewed toward the ultimate
conclusion that the negotiated costs were not fair and reasonable. The review of
additional information available in the official contract file provides a more
comprehensive analysis. For example, the table on page 8 of the report highlights the
percent increase (71 percent) of proposed hours from the initial proposal to the final
revised proposal. The report implies that this contributed to the determination that DTRA
did not negotiate a fair and reasonable price. However, labor costs are the result of the
combination of labor hours and labor rate. Therefore, the total labor costs cannot be
determined fair and reasonable without a corresponding discussion of the labor rates.
The ultimate result of negotiations was that DTRA received an additional 988,341 hours
from the initial proposal while it negotiated a 13.88 percent reduction in total labor cost
from the initial proposal. In more simple terms, the Agency was able to acquire more
resources at a reduced cost as a result of the negotiation process. Focusing on the
increase in labor hours alone, without a corresponding discussion of the decrease in labor
rates and costs, gives an erroneous impression that DTRA accepted a significant labor
cost increase in the final revised proposal. In actuality, DTRA negotiated fair and reasonable
task order costs as documented in the MFR, Cost Review for each of the task orders.

Conclusion

DTRA complied with the Federal Acquisition Regulation and the Department of Defense
Federal Acquisition Supplement in the solicitation, evaluation and award of the contract
for Agency-wide Advisory and Assistance Services (A&AS). The DoDIG draft report
contains no factual findings to the contrary.




                                              7




                                            33
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
Timothy E. Moore
Christine M. McIsaac
Karen A. Ulatwoski
Bethany M. Thomas
Meredith H. Johnson
